fyfiendice

A.

C/fi/Ttd ■S'fotks-

•c/’tfypwi

.O&u/T. - •
C_0.A.
dfr\Ljin^ ■ fitonufj ■&£ /2eafvStde&Ju*j

RECEIVED
SEP - 9 2021

gEgssra^g

Case: 20-50034

Document: 00515803420

Page: 1

Date Filed: 03/31/2021

Ti ^

fHmteb States Court of gfppeate
for tfje Jftftf) Circuit
No. 20-50034

Juan Guzman Zuniga, Jr.,
Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division
Respondent—Appellee.

Appeal from the United States District Court
for the Western District of Texas
USDC No. 5:19-CV-1417

Before Clement, Elrod, and Haynes , Circuit Judges.
Per Curiam:
IT IS ORDERED that appellant’s motion for leave to file out of
time the motion for reconsideration is GRANTED.
A member of this panel previously DENIED the motion for a
certificate of appealability. The panel has considered appellant’s motion for
reconsideration.
IT IS FURTHER ORDERED that the motion is DENIED.

rut,y

Case: 20*50034

Document: 00515755999

Page: 1

Date Filed: 02/24/2021

Hmteti States Court of appeals
for tfje Jftftf) Circuit

United States Court of Appeals
Fifth Circuit

FILED
February 24, 2021
No. 20-50034

Lyle W. Cayce
Clerk

Juan Guzman Zuniga, Jr.
Petitioner—Appellant^
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division
Respondent—Appellee.

Appeal from the United States District Court
for the Western District of Texas
USDC No. 5:19-CV-1417

ORDER:
Juan Guzman Zuniga, Jr. was convicted of sexual assault and
sentenced to thirty years confinement. Zuniga v. State, No. 04-07-729-CR,
2008 WL 4163224. at *1 (Tex. App.—San Antonio Sept. 10,2008, pet. rePd)
(mem. op., not designated for publication). In 2011, Zuniga filed a federal
habeas petition under 28 U.S.C. S 2254. which a federal district court denied
and dismissed on the basis that his claims were barred by the statute of
limitations. We denied Zuniga’s request for a certificate of appealability
(“COA”).

A

Case: 20-50034

Document: 00515755999

Page: 2

Date Filed: 02/24/2021

No. 20-50034

In 2019, Zuniga filed a new § 2254 petition. The district court
dismissed this petition on the basis that it was a “second or successive”
petition under 28 U.S.C. § 2244(h)(3), meaning that the district court lacked
jurisdiction to consider it without prior authorization from the appropriate
court of appeals. Zuniga now moves for a COA to appeal the district court’s
dismissal of the 2019 § 2254 petition.
To obtain a COA, a movant must make “a substantial showing of the
denial of a constitutional right.” 28 U.S.C. S 2253(c)(2); see also Slack v.
McDaniel, 529 ELS. 473, 483-84 (2000). Where, as here, the district court
has denied a request for habeas relief on procedural grounds, the movant
must show that “jurists of reason could find it debatable” both whether “the
petition states a valid claim of the denial of a constitutional right” and
whether “ the district court was correct in its procedural ruling. ” Slack, 522
IJ-S. at 484. Zuniga has not met this standard.
Accordingly, IT IS ORDERED that the motion for a COA is
DENIED.

/s / Catharina Haynes
Catharina Haynes
United States Circuit Judge

2

i^f?€todte& $ ^3

(Jnt-fed
Cwgfcf i&ffiifck
&0ut&6 o'P sT&Th &u(&£
fhzczxeJs

7-fcme&pfc

Ca&lul

*

f

n

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

LYLE W. CAYCE
CLERK

January 23, 2020
#1465196
Mr. Juan Guzman Zuniga Jr.
CID Smith Prison
1313 County Road 19
Lamesa, TX 79331-1898
No. 20-50034

Juan Zuniga, Jr. v. Lorie Davis, Director
USDC No. 5:19-CV-1417

Dear Mr. Zuniga,
We are taking no action your motion to obtain trial transcripts
state court record,
The motion is unnecessary as there are no
transcripts on file,
You may request the record directly from
the district court.
A motion for certificate of appealability with brief in support is
due on, or, before March 2, 2020.
See Court's notice issued
January 22, 2020.

Sincerely,
LYLE W. CAYCE, Clerk
By:

.

„___________________

Claudia N.Farrington,Deputy Clerk
504-310-7706

cc:

Mr. Edward Larry Marshall

r

u&rd~sr#hc dafaf
ttMff&f

p f&&5

~S£v An t/snun OtoMw,
0/Pd£ : d/StM/teC od f/pbsrt fofyui
Jp / oA 3.

Filed 12/10/2019 Page 1 of 2

Case 5:19-cv-01417 Document 4

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
JUAN GUZMAN ZUNIGA, JR.,
TDCJ No. 01465196,

§

S

Petitioner,

v.
LOUIE DAVIS, Director,
Texas Department of Criminal Justice,Correctional riistiimions Divh-tm*,

§
§
§
§
§
§
&

CIVIL NO. SA-19-CA-01417-XR

§
§

Respondent.

DISMISSAL ORDER
Before the Court are Petitioner Juan Guzman Zuniga, Jr.’s petition for habeas corpus relief
pursuant to 28 U.S.C. § 2254 (EC}f:No. 'l) and supplemental .memorandum in support (ECF No. 2).
In these pleadings, Petitioner seeks to challenge the constitutionality of his September 2007 state
court conviction and thirty-year sentence for sexual assault. State v.Zuniga, Jr., No. 2006-CR5239 (186th Dist. Ct„ Bexar Cniy., Tex. Sept. 24, 2007). However, Petitioner previously filed an
application for writ of habeas corpus challenging this same conviction which this Court dismissed
with prejudice as untimely on June .28, 2012. See Zuniga, Jr. v. Thaler, No. 5*1 l-cv-0241-XR
.'\Tf '''

Before a second or successive application for writ of habeas corpus may be filed in the
district court, 28 U.S.C. § 2244(b)(3) provides an applicant must move in die appropriate court of
appeals for an order authorizing the district court to consider the application.

Pursuant to

§ 2244(b), the Court finds this successive application for writ of habeas corpus should be dismissed
because Petitioner has not obtained prior approval to file a successive habeas corpus application.
See Burton v. Stewart, 549 U.S. 147, 152 (2007) (holding the district court lacked jurisdiction to

/~)i- scry*?}

'i

Filed 12/10/20X9 Page 2 of 2

Case 5:19-cv-01417 Document 4

-2consider a successive § 2254 petition since petitioner did not obtain authorization from the court
of appeals); In re Campbell, 750 F.3d 523, 529 (5th Cir. 2014) (petitioner must receive
authorization before filing successive habeas petition).
Accordingly, IT IS HEREBY ORDERED that:
1.

Petitioner Juan Guzman Zuniga, Jr.’s petition for habeas corpus relief pursuant to

28 U.S .C. § 2254 (ECF No. 1) is DISMISSED WITHOUT PREJUDICE for want ofjurisdiction;
. 2.

Petitioner tailed to raaice “a substantial showing of the denial cf a federal right” and

cannot make a substantial showing that this Court’s procedural rulings are incorrect as required by
Fed. R. App. P. 22 for a certificate of appealability. See Slack v. McDaniel, 529 U.S. 473,483-84
(2000). Therefore, this Court DENIES Petitioner a certificate of appealability. See Rule 11(a) of
the Rules Governing § 2254 Proceedings; and
3.

All remaining motions, if any, are DENIED, and this case is now CLOSED.

It is so ORDERED.
SIGNED this 10th day of December, 2019.

\

XAVIER RODRIGUEZ
UNITED STATES DISTRICT JUDGE

v

Filed 12/10/2019 Page 1 of 1

Case5:19-cv-01417 Documents

/

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
JUAN GUZMAN ZUNIGA, JR.,
TDCJ No. 01465196,
Petitioner,
v.
LORIE DAVIS, Director,
Texas Department of Criminal Justice,
Correctional institutions Division,
Respondent.

§
§
§
§
§
§
§
§
§
$
§
§

CIVIL NO. SA-19-CA-01417-XR

JUDGMENT
The Court has considered the Judgment to be entered in the above-styled and numbered
cause.
Pursuant to this Court’s Dismissal Order of even date herewith, IT IS HEREBY
ORDERED, ADJUDGED and DECREED that the petition for writ of habeas corpus pursuant
to 28 U.S.C. § 2254 (ECF No. 1) filed by Petitioner Juan Guzman Zuniga, Jr. is DISMISSED
WITHOUT PREJUDICE. No Certificate of Appealability shall issue in this case. This case is
now CLOSED.
it is so ORDERED.
SIGNED this 10th day of December, 2019.

XAVIER RODRIGUEZ
UNITED STATES DISTRICT JUDGE

/?fifiend/re _C.
0&de£: di&uu&C ef /noridh>-$) ti/fy/.
$nwtd Me, Outtyr#&/ ilult S'f.fej
Jp/ of <2

Case 5:19-cv-01417 Documdra/9/72U2U
Page 1 of 2

Filed

j-c

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
JUAN GUZMAN ZUNIGA, JR.,
TDCJ No. 01465196,
Petitioner,

§
§
§
§

v.

CIVIL NO. SA-19-CA-01417-XR

LORIE DAVIS, Director,
Texas Department of Criminal Justice,
Correctional lusuiuiions Division,

§
§
§
e%

$

Respondent
ORDER
Before the Court is pro se Petitioner Juan Guzman Zuniga, Jr.’s Motion to Alter or
Amend the Judgment (ECF No. 6). Citing Rule 59(e) of the Federal Rule of Civil Procedure,
Petitioner seeks reconsideration of this Court’s dismissal of his 28 U.S.C. § 2254 Habeas Corpus
Petition (ECF No. 1).
In the Dismissal Order signed December 10, 2019, this Court dismissed Petitioner’s
§ 2254 petition without prejudice because the Court lacks jurisdiction to entertain successive
habeas corpus applications without prior approval from the Fifth Circuit Court of Appeals. (ECF
No. 4). Fcr the same reasons, the Court now lacks jurisdiction over Petitioner’s Rule 59 motion.
Furthermore, Petitioner fails to demonstrate the existence of: (1) an intervening change of
controlling law; (2) the availability of new evidence; or (3) the need to correct a clear error or to
prevent manifest injustice. See Waltman v. Int’l Paper Co., 875 F.2d 468, 473 (5th Cir. 1989)
(holding the purpose of a Rule 59(e) motion is “to correct manifest errors of law or to present
newly discovered evidence.”).

oaseo;i»-cv-ui4i/ uucuriiwwv"^u£.v

Page 2 of 2

i-iieu

It is therefore ORDERED that Petitioner’s Motion to Alter or Amend the Judgment, filed
January 6,2020 (ECF No. 6), is DISMISSED.
It is further ORDERED that a certificate of appealability is DENIED for the instant
motion, as reasonable jurists could not debate the denial of Petitioner’s motion on substantive or
procedural grounds, nor find that the issues presented are adequate to deserve encouragement to
proceed. Miller-El v. Cockrell, 537 U.S. 322,327 (2003).
It is so ORDERED.
SIGNED this 7th day of January, 2020.
\
------------ —

XAVIERT&DRIUUEZ
UNITED STATES DISTRICT JUDGE

-2-

{pfitkft: &/!(///&
10#kjk£ & 'Supp/fMFlf
c& $wM *Lu/ tfl iQddr/uMJtiC
-&£ /Qiz&SW^

Case 5:19-cv-01417 DoqumeHW»/^uzu
Page 1 of 1

Filed

C

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
JUAN GUZMAN ZUNIGA, JR.,
TDCJNo. 01465196,
§

Petitioner,
§

v.

CIVIL NO. SA-19-CA-01417-XR

LORIE DAVIS, Director,
Texas Department of Criminal Justice,
Correctional Institutions Division,

§

§
§
§

Respondent
ORDER
Before the Court is pro se Petitioner Juan Guzman Zuniga, Jr.’s Motion for Leave to
Supplement or Amend (ECF No. 9). Petitioner previously filed a motion to alter or amend
judgment under Rule 59(e) of the Federal Rule of Civil Procedure (ECF No. 6), and now seeks to
supplement this, motion with additional briefing.

However, this Court already dismissed

Petitioner’s Rule 59(e) motion in an Order dated January 7,2020 (ECF No. 7).
It is therefore ORDERED that Petitioner’s new motion, filed January 17, 2020 (ECF
No. 9), is DISMISSED for the reasons stated in this Court’s previous Order (ECF No. 7).
It is farther ORDERED that a certificate of appealability is DENIED for the instant
motion, as reasonable jurists could not debate the denial of Petitioner’s motion on substantive or
procedural grounds, nor find that the issues presented are adequate to deserve encouragement to
proceed. Miller-El v. Cockrell, 537 U.S. 322,327 (2003).
SIGNED this 23rd day of January, 2020.

XAVIER RODRIGUEZ
United States District Judge

K

d

Jkfiendiai* £
o-fi mnoAj JZ ./0/>fa//v-S7%£
fkccati And T%JW(cif)£.

Case 5:19-cv-01417 Documeti&Ufl/^uzu
Page 1 of 2

Filed

£
. J>'

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
JUAN GUZMAN ZUNIGA, JR.,
TDCJNo. 01465196,

§
§

Petitioner,
§

CIVIL NO. SA-19-CA-01417-XR

v.
LORIE DAVIS, Director,
Texas Department of Criminal Justice,
Correctional Institutions Division..

§
§
&

Respondent

§

ORDER
Before the Court is Petitioner’s Motion to Obtain Trial Court Record (ECF No. 12). Petitioner
requests a copy of his state trial court records and transcripts so that he may prepare an appeal of this
Court’s dismissal of his 28 U.S.C. § 2254 Habeas Corpus Petition as successive.

After careful

consideration, the motion will be denied.
As stated in previous orders (ECF Nos. 4, 7, 11), this Court lacks jurisdiction over this case
because Petitioner's § 2254 petition is successi . Petitioner has cited no authority stating he is entitled
to the record to appeal such a determination, nor does this Court have the resources to provide free copies
of the record to every petitioner who submits such a request. Moreover, the Court is no longer in
possession, of Petuionei's state court record, as his original application for writ of habeas corpus was
dismissed as untimely on June 28,2012. See Zuniga, Jr. v. Thaler, No. 5:1 l-cv-0241-XR (W.D. Tex.).
It is therefore ORDERED that the Petitioner’s Motion to Obtain Trial Court Record, filed
February 3, 2020 (ECF No. 12), is DENIED.
SIGNED this 4th day of February, 2020.
\

—

XAVIER RODRIGUEZ
UNITED STATES DISTRICT JUDGE

4

)'

:f •

Filed 08/29/2014EPage 1 of 11

Case 5:ll-cv-00241 Document 41

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
JUAN GUZMAN ZUNIGA, JR,
TDCJ No. 1465196,

§
§
§
§
§

Petitioner,

§ CIVIL NO. SA-11-CA-241-XR

v.
WILLIAM STEPHENS, Director,
Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent.

§
§
§
§
§
§

ORDER DISMISSING AND DENYING RULE 60(bl MOTION
The matter before the Court is Petitioner’s motion for relief from judgment pursuant to
Rule 60(b) of the Federal Rules of Civil Procedure, filed August 25, 2014 (ECF no. 40). For the
reasons set forth below, Petitioner’s motion will be denied.
I. Background
Petitioner filed this federal habeas corpus action pursuant to 28 U.S.C. Section 2254
challenging his September, 2007 Bexar County conviction for sexual assault. In a Dismissal
Order issued June 28, 2012 (ECF no. 19), this Court dismissed Petitioner’s federal habeas corpus
petition as untimely under the AEDPA’s one-year statute of limitations found in Title 28
U.S.C.Section 2244(d)(1)(A). As explained in this Court’s Dismissal Order, Petitioner filed this
Section 2254 federal habeas corpus action challenging his conviction for sexual assault not
earlier than March 21, 2011. This Court determined (1) Petitioner’s conviction became final for
y

purposes of the AEDPA’s one-year statute of limitations not later than July 3, 2009, (2) the
deadline for filing Petitioner’s federal habeas corpus petition was July 3, 2010, (3) Petitioner’s

1

Filed 08/29/2014CPage 3 of 11

Case 5:ll-cv-00241 Document 41

On motion and upon such terms as are just, the court may relieve a party or its
legal representative from a final judgment, order, or proceeding for the following
reasons: (1) mistake, inadvertence, surprise, or excusable neglect; (2) newly
discovered evidence which by due diligence could not have been discovered in
time to move for a new trial under Rule 59(b); (3) fraud (whether previously
called intrinsic or extrinsic), misrepresentation, or misconduct of an adverse party;
(4) the judgment is void; (5) the judgment has been satisfied, released, or
discharged, or a prior judgment upon which it is based has been reversed or
otherwise vacated, or it is no longer equitable that the judgment should have
prospective application; or (6) any other reason justifying relief from the
operation of the judgment.
Such a motion must be made within a reasonable time and for reasons (1), (2), and (3) not
more than one year after the judgment, order, or proceeding was entered or taken. Gonzalez v.
Crosby, 545 U.S. 524, 528 n.2, 125 S. Ct. 2641, 2645 n.2, 162 L Ed. 2d 480 (2005);
Fed.R.Civ.P. 60(c)(1), Fed.R.Civ.P.
A Rule 60(b) motion which attacks not the federal district court’s ruling on the merits of
a federal habeas claim but, rather, challenges only the federal district court’s refusal to address
the merits of a claim, due to findings of procedural default, the expiration of the AEDPA’s
limitations period, or some other procedural impediment to merits disposition, may proceed
without pre-certification under 28 U.S.C. Section 2244(b)(3). See Gonzalez v. Crosby, 545 U.S,
at 533-38, 125 S. Ct. at 2648-51 (holding that, if neither the motion itself nor the federal
judgment from which it seeks relief substantively addresses federal grounds for setting aside the
■

movant’s state conviction, the motion may proceed to resolution); Tamavo v. Stephens, 740 F.3d
986, 990 (5th Cir.) (“A Rule 60(b) directed to a procedural ruling that barred consideration of the
merits, such as a procedural default, is not considered a ‘successive’ petition and is properly
brought as a Rule 60(b) motion.”), stay of execution and cert denied,___U.S.-----, 134 S. Ct.
A

1022 (Jan. 22, 2014); Adams v. Thaler, 679 F.3d 312, 319 (5th Cir.) (holding a motion

3

Case 5:ll-cv-00241 Document 41

Filed 08/29/2014CPage 4 of 11

challenging only the federal district court’s conclusion that petitioner had procedurally defaulted
on a claim was properly before the district court pursuant to Rule 60(b)), stay of execution
denied,__ U.S.

j 132 S. Ct. 1995,___L. Ed. 2d___ (2012); Hernandez v. Thaler, 630 F.3d

420, 427-28 (5th Cir. 2011) (holding the same). Because Petitioner’s Rule 60(b) motion in this
cause attacks this Court’s summary dismissal of Petitioner’s federal habeas corpus petitions ,
untimely, Petitioner may proceed without pre-certification under 28 U.S.C. Section'2244(b)(3).
A Rule 60(b)(6) movant is required to show “extraordinary circumstances” justifying the
reopening of a final judgment. Gonzalez v. Crosby, 545 U.S. at 535, 125 S. Ct. at 2649; Diaz v.
Stephens, 731 F.3d 370, 374 (5th Cir.), cert, denied,__ U.S.__ , 134 S. Ct. 48, 186 L. Ed. 2d
960 (2013); Adams v. Thaler, 679 F.3d at 319; Hernandez v. Thaler, 630 F.3d at 429. "Such
circumstances will rarely occur in the habeas context.” Gonzalez v. Crosby, 545 U.S. at 535,125
S. Ct. at 2649; Diaz v. Stephens, 731 F.3d at 374; Adams v. Thaler, 679 F.3d at 319. A change in
decisional law after entry of judgment does not constitute exceptional circumstances and is not
alone grounds for relief from a final judgment under Rule 60(b)(6). Diaz v. Stephens, 731 F.3d at
375-76; Adams v. Thaler, 679 F.3d at 319; Hernandez v. Thaler, 630 F.3d at 430.
Insofar as Petitioner argues in conclusory fashion that this Court’s dismissal of
Petitioner’s federal habeas corpus action herein was the product of mistake, inadvertence,
surprise, or excusable neglect (as provided by Rule 60(b)(1), Fed.R.Civ.P.), any such contention
is untimely. This Court dismissed Petitioner’s federal habeas corpus action on June 28, 2012
(ECF no. 19). Petitioner filed his Rule 60(b) motion not earlier than August 20, 2014, i.e., the
date petitioner signed his motion. Thus, Petitioner’s Rule 60(b) motion was not filed within the
one-year period mandated by Rule 60(c)(1),.Fed.R.Civ.P.

Filed 08/29/2014EPage 5 of 11

Case 5:ll-cv-00241 Document 41

Moreover, Petitioner alleges no specific facts which show this Court’s dismissal of
Petitioner’s federal habeas corpus action herein as untimely was in any manner erroneous,
inadvertent, mistaken, the product of surprise or excusable neglect, or inconsistent with any legal
authority. Therefore, this Court will liberally construe Petitioner’s pro se Rule 60(b) motion as
seeking relief pursuant to Rule 60(b)(6).
B.

Petitioner’s Rule 60fbJ Motion Untimely
Petitioner’s Rule 60(b) motion was not filed within a year from this Court’s judgment as

required for such motions filed pursuant 'to Rule 60(b) subdivisions (1) through (3). Rule
60(c)(1), Fed.R.Civ.P. Nor was Petitioner’s Rule 60(b) motion filed with a reasonable time, as
required for motions under Rule 60(b)(6) by the same Rule 60(c)(1). This Court dismissed
Petitioner’s original federal habeas corpus action on June 28, 2012. Petitioner’s Rule 60(b)
motion seeks to litigate the substance of his federal habeas corpus claims which this Court
dismissed as untimely.
Petitioner waited to file his Rule 60(b) motion until August, 2014, more than two years
after this Court dismissed Petitioner’s federal habeas corpus petition and more than fifteen
months after the Fifth Circuit effectively affirmed this Court’s dismissal of Petitioner’s claims as
untimely by denying Petitioner a CoA. All of the arguments raised in Petitioner’s Rule 60(b)
motion were available to Petitioner at the time this Court dismissed Petitioner’s federal habeas
corpus petition as untimely.

Petitioner does not identify any new legal opinions or legal

authorities unavailable at the time this Court dismissed his federal habeas corpus petition which
furnish a new legal basis for rejecting this court’s analysis of the timeliness of Petitioner’s
federal habeas corpus petition. The more than two-year delay between the date of this Court’s

5

Filed 08/29/2014LPage 6 of 11

Case 5:ll-cv-00241 Document 41

judgment and the filing of Petitioner’s Rule 60(b) motion is not justified by any rational > *
explanation\urrently before the Court.
Under such circumstances, petitioner’s Rule 60(b) motion was not brought within a
reasonable time. See Tamayo v. Stephens, 740 F.3d at 991 (holding a Rule 60(b) motion filed
eight months after the Supreme Court’s decision in McQuiggin v. Perkins,___U.S.___, 133 S.
Ct. 1924, 185 L. Ed. 2d 1019 (2013), in which the movant sought retroactive application of the
Supreme Court’s holding in McQuiggin was untimely under Rule 60(c)(1)). Here, there is no
factual Allegation showing Petitioner, despite the exercise of due diligence, was unable to present

;
l

die same arguments raised in his Rule 60(b) motion at the time this Court issued its ruling ^
dismissing Petitioner’s federal habeas corpus petition as untimely. Petitioner’s Rule 60(b)
motion must be dismissed as untimely. •
C.

Petitioner’s Arguments in his Rule 60(bl Motion Lack Merit
Petitioner complains that he was denied a ruling by this Court on his amended petition for

federal habeas corpus relief. Petitioner is in error. (This Court’s Dismissal Order made clear
Petitioner’s federal habeas corpus attack upon his 2007 Bexar County conviction for sexual

;

assault was barred by the AEDPA’s one-year statute of limitations (ECF no. 19). This Court’s
holding on this point applied with equal force to Petitioner’s original federal habeas corpus
petition (filed March 25, 2011 - ECF no. 1) and Petitioner’s amended petition (filed September 8,
2011 - ECF no. 9). ^Petitioner’s Amended Petition does not include a certificate of service
indicating Petitioner ever served a copy of same on Respondent’s counsel of record. Petitioner’s
Amended Petition does not include any discussion relevant to this Court’s conclusion that
Petitioner’s federal habeas corpus action was untimely under Section 2244(d)(1). Respondent
filed his motion to dismiss on October 10, 2011 (ECF no. 14) requesting dismissal of this entire

6

■

■

Filed 08/29/2014CPage 7 of 11

Case 5:ll-cv-00241 Document 41

action, more than a month after Petitioner filed his amended petition (i.e., on September 8 » •
2011). Even if it were possible to construe this Court’s Dismissal Order as addressing only
Petitioner’s original federal habeas corpus petition (a legal principle for which Petitioner cites no
authority and for which this Court has been unable to locate any legal authority), the
untimeliness of Petitioner’s original federal habeas corpus petition was not cured by the filing of
Petitioner’s amended petition approximately six months later. On June 28, 2012, this Court
dismissed all of Petitioner’s claims herein as untimely: “this case is DISMISSED as barred by
the statute of limitations.”

The untimeliness of Petitioner’s original federal habeas corpus

petition pursuant to Section 2244(d)(1) was not rectified or cured by the filing of Petitioner’s ,
Amended Petition in September, 2011. Petitioner’s Amended Petition did nothing more than add
•/.

another conclusory assertion of Due Process violation to the litany of complaints Petitioner
raised in his original federal habeas corpus petition collaterally attacking his 2007 state criminal
• •
2
conviction.

Petitioner presents no arguments suggesting this Court’s ruling on the untimeliness of this
federal habeas corpus action was in any manner erroneous or inconsistent with any legal
authority. Any contention Petitioner wishes to raise at this juncture suggesting this Court erred
in dismissing Petitioner’s federal habeas corpus action as untimely was more than adequately
addressed in this Court’s Dismissal Order (which this Court expressly incorporates by reference)
and was implicitly rejected by the Fifth Circuit when it denied Petitioner a CoA. None of the
arguments contained in Petitioner’s latest motion warrant relief under Rule 60(b).

1 Dismissal Order, ECF no. 19, at p. 7.
2 Liberally construed, Petitioner’s Amended Petition asserted a new claim that the
intermediate state appellate court erroneously applied the insufficient evidence standard of
Jackson v. Virginia in affirming Petitioner’s conviction on direct appeal.
7

Filed 08/29/2014EPage 8 of 11

Case 5:ll-cv-00241 Document 41

D.

Petitioner Has Failed to Show “Extraordinary Circumstances”
Petitioner has not identified any “extraordinary circumstances” which warrant

reconsideration under Rule 60(b)(6) of this Court’s conclusion that Petitioner’s federal habeas
corpus petition was untimely. The Supreme Court’s opinion in McQuiggin v. Perkins,__ U.S.
__ , 133 S. Ct. 1924, 1931-32, 185 L. Ed. 2d 1019 (2013) (holding “a credible showing of
actual innocence” may permit a petitioner to overcome a procedural bar to relief such as the
AEDPA’s limitations period), is of little solace to Petitioner. Petitioner has failed to allege any
specific facts establishing “a credible showing” he is actually innocent of the crime for which he
was convicted. Even when construed liberally, Petitioner’s conclusory assertions in his Rule
60(b) motion do not satisfy the showing necessary under McQuiggin. Petitioner identifies no
evidence showing he is actually innocent of the offense for which he was convicted and
sentenced in September, 2007. Petitioner has failed to allege any facts showing the existence of
exceptional circumstances warranting relief under Rule 60(b)(6).
IV. Certificate of Appealability
Under the AEDPA, before a petitioner may appeal the denial of a habeas corpus petition
filed under Section 2254, the petitioner must obtain a CoA. Miller-El v. Johnson, 537 U.S. 322,
335-36, 123 S. Ct. 1029, 1039, 154 L. Ed. 2d 931 (2003); 28 U.S.C. §2253(c)(2). Likewise,
under the AEDPA, appellate review of a habeas petition is limited tc the issues on which a CoA
is granted. See Crutcher v. Cockrell, 301 F.3d 656, 658 n.10 (5th Cir. 2002) (holding a CoA is
granted on an issue-by-issue basis, thereby limiting appellate review to those issues); Jones v.
Cain, 227 F.3d 228, 230 n.2 (5th Cir. 2000) (holding the same); Lackey v. Johnson, 116 F.3d
149, 151 (5th Cir. 1997) (holding the scope of appellate review of denial of a habeas petition
limited to the issues on which CoA has been granted). In other words, a CoA is granted or
8

Filed 08/29/2014CPage 9 of 11

Case 5:ll-cv-00241 Document 41

denied on an issue-by-issue basis, thereby limiting appellate review to those issues on which
CoA is granted alone. Crutcher v. Cockrell, 301 F.3d at 658 n.10; Lackey v. Johnson, 116 F.3d at
151; Murphy v. Johnson, 110 F.3d 10, 11 n.l (5th Cir. 1997); 28 U.S.C. §2253(c)(3).
^ A CoA will not be granted unless the petitioner makes a substantial showing of the denial
of a constitutional right. Tennard v. Dretke, 542 U.S. 274,282, 124 S. Ct. 2562, 2569,159 L. Ed.
2d 384 (2004); Miller-El v. Johnson, 537 U.S. at 336, 123 S. Ct. at 1039; Slack v. McDaniel, 529
U.S. 473, 483, 120 S. Ct. 1595, 1603, 146 L. Ed. 2d 542 (2000); Barefoot v. Estelle, 463 U.S.
880, 893,103 S. Ct. 3383, 3394, 77 L. Ed. 2d 1090 (1983).
*To make such a showing, the petitioner need not show he will prevail on the merits but,
rather, must demonstrate that reasonable jurists could debate whether (or, for that matter, agree)
the petition should have been resolved in a different manner or that the issues presented are
adequate to deserve encouragement to proceed farther. Tennard v. Dretke, 542 U.S. at 282, 124
S. Ct. at 2569; Miller-El v. Johnson, 537 U.S. at 336, 123 S. Ct. at 1039; Slack v. McDaniel, 529
U.S. at 484, 120 S. Ct. at 1604; Barefoot v. Estelle, 463 U.S. at 893 n.4, 103 S. Ct. at 3394 n.4.
v

This Court is required to issue or deny a CoA when it enters a final Order such as this one
adverse to a federal habeas petitioner. Rule 11(a), Rules Governing Section 2254 Cases in the
United States District Courts. This Court denied Petitioner a CoA the first time Petitioner
presented this Court with his complaints about tire validity of his guilty pleas. The Fifth Circuit
likewise found Petitioner was not entitled to a CoA.
The showing necessary to obtain a CoA on a particular claim is dependent upon the
manner in which the District Court has disposed of a claim. If this Court rejects a prisoner’s
constitutional claim on the merits, the petitioner must demonstrate reasonable jurists could find
the court’s assessment of the constitutional claim to be debatable or wrong. “[Wjhere a district
9

. f

Filed 08/29/2014CPage 11 of 11

Case 5:ll-cv-00241 Document 41

demonstrate “exceptional circumstances” exist which warrant relief from the Judgment in this
cause under Rule 60(b)(6). Petitioner is not entitled to a CoA from this Court’s denial of
Petitioner’s Rule 60(b) motion.
V. ORDER
Accordingly, it is hereby ORDERED that:
1. Petitioner’s Rule 60(b) motion for relief from judgment, filed August 25, 2014 (EOF
no. 40) is DISMISSED as untimely and, alternatively, in all respects DENIED.
2. Petitioner is DENIED a Certificate of Appealability with regard to both the dismissal
and denial of his Rule 60(b) motion.
It is so ORDERED.
SIGNED this 29th day of August, 2014.

XAVIER RODRIGUEZ
UNITED STATES DISTRICT JUDGE

11

;

t .

OFFICIAL NOnCEFROM^QimT ftF CRIMINAL APPEALS OF TEXAS
0S.POSTAGE » PITNEY BOWES
PENALTY FOR
PRIVATE USE

iu JS

jj
|

$ 000.268

ZIP 78701
02 1W
0001401603 OCT 03 2019

$/
§
10/2/2019
A/
os
ZUNIGA, JUAN GUZMAN T^€i lVO]|l6CRM39-W2
WR-75,319-02
This is to advise that the Court^s'Meniedjyrfh^t written order the application for
writ of habeas corpus on the findir%g^^&^ourt without a hearing.
^ Deana Williamson, Cleric

Q'iyo

JUAN GUZMAN ZUNIGA JR.
STEVENSON UNIT - TDC # 1465196
1525 FM 766
CUERO, TX 77954

S
/

MIWNAB 77354

,,,,,,,ii,i,i,,|,liiii,jii,,i,Mti,iiiiiii,i,iiiiMiij((),|iiiM
$

/IomacIoz yr
to'M Ctmd<

^pfiendccz

6

CUJ2/P /bezels- /fafOAit.
&ft/mau

/

NO. 2006CR5239-W2
EX PARTE

JUAN GUZMAN ZUNIGA JR.

§

IN THE DISTRICT COURT

§

186™ JUDICIAL DISTRICT

§

BEXAR COUNTY, TEXAS

ORDER DESIGNATING ISSUES
The Court having concluded that controverted, previously unresolved facts which
are material to the legality of Applicant's confinement exist and need to be resolved, there
is a necessity for the suspension of the time limitations enunciated in Article 11.07-of the
Texas Code of Criminal Procedure. See Tex. Code Crim.-Proc. Ann. art. 11.07 § 3(d).
Applicant has alleged the following issue which the court finds requires
resolution:
a.
b.
c.
d.

Prosecutorial misconduct;
Abuse of discretion;
Ineffective assistance of trial and appellate counsel; and
Actual innocence.

Findings will be forwarded to the Court of Criminal Appeals for its disposition of
the matter.

SIGNED and ENTERED on

JEFFERSONMOORE
Judge; 186th Judicial District Court
Beter Counjy; Texas
cc:
The Court of Criminal Appeals
P.O. Box 12308
Austin, Texas 78711

/

/•

NO. 2006-CR-5239-W2
EX PARTE

JUAN GUZMAN ZUNIGA JR.

§

IN THE DISTRICT COURT

§

186th JUDICIAL DISTRICT

§

BEXAR COUNTY, TEXAS

ORDER
Applicant, Juan Guzman Zuniga, Jr. has filed a pro se application for a post-conviction
writ of habeas corpus pursuant to Article 11.07 of the Texas Code of Criminal Procedure,
collaterally attacking his conviction in cause number 2006CR5239.
ALLEGATIONS OF APPLICANT
1.

In Ground One, Applicant alleges prosecutorial misconduct. He claims that the prosecutor
withheld exculpatory evidence. In his memorandum accompanying his writ application, it
appears that the evidence Applicant believes was withheld was exculpatory DNA evidence
and a report generated by the SANE nurse. Applicant claims that evidence existed that
should have been tested for DNA.

2.

In Ground Two, Applicant alleges ineffective assistance of trial and appellate counsel. He
claims that, through various acts and omissions, his trial counsel and appellate counsel
provided ineffective assistance. In his accompanying memorandum, Applicant specifies
that his trial counsel:
•

Allowed the exclusion of evidence obtained by the SANE nurse;

•

Refused to give Applicant a copy of the trial record and transcripts;

•

Failed to investigate the existence of impeaching evidence;

•

Failed to locate an interview of the SANE nurse;

•

Failed to discover the genetic material existing on the complainant’s clothing;

•

Failed to investigate, develop, and present evidence to rebut the state’s case.

Applicant claims that appellate counsel:
•

Failed to conduct an adequate investigation to support DNA testing;

•

Knew of the existence of DNA evidence but did not challenge the trial counsel ’ s
ineffectiveness for not obtaining and testing the evidence;

3.

•

Denied Applicant a copy of the trial court records

•

Failed to obtain all of the SANE nurse evidence;

•

Failed to investigate Applicant’s DNA claim;

•

Failed to challenge the denial of DNA testing;

•

Mixed two different proceedings under two different laws;

•

Failed to challenge the state’s failure to disclose DNA evidence;

•

Failed to challenge the rape kit evidence.

In Ground Three, Applicant alleges judicial misconduct constituting an abuse of discretion.
He asserts that the trial judge abused his discretion for denying appointment of counsel and
denying DNA testing.

4.

In Ground Four, Applicant claims that he is actually innocent, and that the SANE nurse
report and DNA evidence would prove his innocence.
HISTORY OF THE CASE
On or about August 31, 2007, Applicant pled not guilty to the second degree felony

offense of sexual assault. A jury found Applicant guilty and the trial court sentenced him to
thirty (30) years confinement in TDCJ.
Applicant’s conviction was affirmed by the Fourth Court of Appeals. Zuniga v. State,
No. 04-07-00729-CR (Tex. App. - San Antonio September 10, 2008), pet. stricken) (not

Juan Guzman Zuniga, Jr. #1465196
Stevenson Unit
1525 FM 766
Cuero TX 77954

I

m

JpflenAut

JfourtI) Court of Appeals!
#>ait jSntoma, ®exas
JUDGMENT
No. 04-17-00370-CR
Juan Guzman ZUNIGA Jr.,
Appellant
v.
The STATE of Texas,
Appellee
From the 186th Judicial District Court, Bexar County, Texas
Trial Court No. 2006CR5239
Honorable Jefferson Moore, Judge Presiding
BEFORE CHIEF JUSTICE MARION, JUSTICE BARNARD, AND JUSTICE RIOS
In accordance with this court’s opinion of this date, the judgment of the trial court is
AFFIRMED.
SIGNED January 3, 2018.

lrffle Rios, Justice

FILE COPY

f
MANDATE
THE STATE OF TEXAS
TO THE 186TH JUDICIAL DISTRICT COURT OF BEXAR COUNTY, GREETINGS:
Before our Court of Appeals for the Fourth District of Texas on January 3, 2018, the cause upon appeal to
revise or reverse your judgment between
Juan Guzman Zuniga Jr., Appellants)
V.
The State of Texas, Appellee(s)
No. 04-17-00370-CR and

Tr. Ct. No. 2006CR5239

was determined, and therein our Court of Appeals made its order in these words:

In accordance with this court’s opinion of this date, the judgment of the
trial court is AFFIRMED.
WHEREFORE, WE COMMAND YOU to observe the order of our said Court of Appeals for the Fourth
District of Texas, in this behalf and in all things have the order duly recognized, obeyed, and executed.
Witness the Hon. Sandee Bryan Marion, Chief Justice of the Court of Appeals for the Fourth District of Texas,
with the seal of the Court affixed and the City of San Antonio on July 26,2018.
KEITH E. HOTTLE, CLERK
Cynthia A. Martinez
Deputy Clerk, Ext. 53853

?

T

$
-v:

I

JfourtFj Court of Appeals
§>an Sntomo, QCexasf
October 31,2018
No. 04-17-00635-CR
Juan Guzman ZUNIGA Jr.,
Appellant
\

v.
The STATE of Texas,
Appellee

From the 186th Judicial District Court, Bexar County, Texas
Trial Court No. 2006CR5239
Honorable Jefferson Moore, Judge Presiding
ORDER
In accordance with the court’s opinion of this date, this appeal is DISMISSED FOR LACK
OF JURISDICTION;
It is so ORDERED on October 31, 2018.

Luz Elena D. Chapa, Justice
^^Q^feS^W^REOF, I have hereunto set my hand and affixed the seal of the said
court ojTthjs 31 stfflay ofiScfeber, 2018.
S o/ —-MYL— \o> §

i*{

£

Jfourtfj Court of Appeals!
£s>an jSntomo, %txa*
MEMORANDUM OPINION
No. 04-17-00635-CR
Juan Guzman ZUNIGA Jr.,
Appellant
v.
The STATE of Texas,
Appellee
From the 186th Judicial District Court, Bexar County, Texas
Trial Court No. 2006CR5239
Honorable Jefferson Moore, Judge Presiding
PER CURIAM
Sitting:

Karen Angelini, Justice
Luz Elena D. Chapa, Justice
Irene Rios, Justice

Delivered and Filed: October 31, 2018
DISMISSED FOR LACK OF JURISDICTION
This is an attempted appeal from the trial court’s failure to rule on an untimely-filed motion
for new trial.
Appellant Juan Guzman Zuniga Jr. was convicted of sexual assault in September 2007, and
this court affirmed his conviction on direct appeal. See Zuniga v. State, No. 04-07-00729-CR, 2008
WL 4163224 (Tex. App.—San Antonio Sept. 10, 2008, pet. stricken) (not designated for
publication). In September 2016, Zuniga filed a motion for forensic DNA testing and a motion to
appoint counsel. The trial court denied the request for counsel on March 14, 2017, and denied the

i

04-17-00635-CR

motion for post-conviction DNA testing on April 17,2017. Zuniga timely appealed, and this court
subsequently affirmed the trial court. See Zuniga v. State, No. 04-17-00370-CR, 2018 WL 280521
(Tex. App.—Jan. 3,2018, pet. ref d) (mem. op., not designated for publication). On June 2,2017,
while the appeal was pending, Zuniga filed an untimely motion for new trial in the trial court,
asking the court to reconsider its rulings on his request for counsel and DNA testing. The trial
court did not rule on the motion, and Zuniga filed the instant notice of appeal in September 2017,
complaining of the court’s failure to rule.
A defendant in a criminal action has a right to appeal a final judgment of conviction and
orders made appealable by statute. See Abbott v. State, 271 S.W.3d 694, 696-97 (Tex. Crim. App.
2008). The appealable order in Zuniga’s post-conviction DNA proceeding was the order denying
the motion for post-conviction DNA testing, which was the subject of Appeal No. 04-17-00370CR. There is no further final judgment or appealable order in that proceeding that Zuniga may
appeal, and he has therefore failed to properly invoke the jurisdiction of this court.
We therefore dismiss this appeal for lack ofjurisdiction.
PER CURIAM
DO NOT PUBLISH

-2i

/flppendict J3Z

. *(">

FILE COPY

jfourtl) Court of Appeals
S>an Untonio, ®exas
February 15,2018
No. 04-17-00370-CR
Juan Guzman ZUNIGA JR.,
Appellant
v.
The STATE of Texas,
Appellee
From the 186th Judicial District Court, Bexar County, Texas
Trial Court No. 2006CR5239
Honorable Jefferson Moore, Judge Presiding

ORDER
Sitting:

Sandee Bryan Marion, Chief Justice
Karen Angelini, Justice
Marialyn Barnard, Justice
Rebeca C. Martinez, Justice
Patricia O. Alvarez, Justice
Luz Elena D. Chapa, Justice
Irene Rios, Justice

The court has considered the appellant’s motion for en banc reconsideration, and the
motion is DENIED.

Iremnlios, Justice

IN WITNESS WHEREOF, I have hereunto set my hand and affixed the seal of the said
court on this 15th day of February, 2018.

(£)

FILE COPY

Jfourtfj Court of Appeals
S>an Antonio, tlcxas
February 15,2018
No. 04-17-00370-CR
Juan Guzman ZUNIGA JR.,
Appellant
v.
The STATE of Texas,
Appellee
\

From the 186th Judicial District Court, Bexar County, Texas
Trial Court No. 2006CR5239
Honorable Jefferson Moore, Judge Presiding
ORDER
Sitting:

Sandee Bryan Marion, Chief Justice
Marialyn Barnard, Justice
Irene Rios, Justice

The panel has considered the appellant’s motion for rehearing, and the motion is
DENIED.

court Stith^ 15th

MESRel)F,5have hereunto set my hand and affixed the seal of the said
(February, 3)18.

Keith E. Hottle
Clerk of Court

flpiKndua L

tlLt COPY
/

Jfourtf) Court of Appeals.
g>an Sntomo, %txasf
March 19, 2018
No. 04-17-00635-CR
Juan Guzman ZUNIGA Jr.,
Appellant
v.
The STATE of Texas,
Appellee
From the 186th Judicial District Court, Bexar County, Texas
Trial Court No. 2006CR5239
Honorable Jefferson Moore, Judge Presiding
ORDER
Appellant, proceeding pro se, filed a notice of appeal stating his intent to appeal the trial
court’s order signed on April 17, 2017 denying his post-conviction motion for forensic DNA
testing under Chapter 64 of the Texas Code of Criminal Procedure. See Tex. Code Crim. Proc.
Ann. §§ 64.01-.05 (West Supp. 2017). Appellant’s court-appointed attorney filed a brief
pursuant to Anders v. California, 368 U.S. 738 (1967), asserting there are no meritorious issues
to raise on appeal, and has informed the appellant of the right to file his own pro se brief.
Nichols v. State, 954 S.W.2d 83, 85 (Tex. App.—San Antonio 1997, no pet.); Bruns v. State, 924
S,W.2d 176, 177 n.l (Tex. App. —San Antonio 1996, no pet.). The State filed a letter waiving
its right to file an appellee’s brief unless appellant files a pro se brief. Appellant has expressed
his intent to file a pro se brief and has been provided with a copy of the appellate record. See
Kelly v. State, 436 S.W.3d 313 (Tex. Crim. App. 2014).
Appellant has now requested a copy of, or access to, the reporter’s record from his 2007
trial, particularly volume two of the seven volume reporter’s record. An appeal from an order
denying a post-conviction motion for DNA testing is limited to the matters directly relevant to
the motion for DNA testing. See Tex. Code Crim. Proc. Ann. §§ 64.01-.05. Appellant is
therefore only entitled to a copy of the record filed in this appeal from the denial of his DNA
motion, which has been previously furnished, not a copy of the entire appellate record from his
2007 trial.
Accordingly, it is ORDERED that appellant’s request for access to volume(s) of the
reporter’s record from his 2007 trial is DENIED. It is further ORDERED that appellant’s

r.

HLh COPY

motion for an extension of time to file his pro se brief is GRANTED. Appellant’s pro se brief is
due within thirty (30) days from the date of this order.
If the appellant files a pro se brief, the State may file a responsive brief no later than thirty (30)
days after the date the appellant’s pro se brief is filed in this court.

t

Rebeca C. Martinezr^tice
IN WITNESS WHEREOF, I have hereunto set my hand and affixed the seal of the said
court on this 19th day of March, 2018.
i
t

i/ si /.

I

^

KEI'TME. HOTTLE* I
Clerk of Court

